          Office of Audits
          Office of Inspector General
          U.S. General Services Administration



           Follow-up Audit of GSA’s Acquisition of
           Services for the International Trade Center
           at the Ronald Reagan Building:
           PBS’s Oversight of Contract Requirements
           Report Number A110217/P/R/R13001
           December 17, 2012




A110217/P/R/R13001
                      Office of Audits
                      Office of Inspector General
                      U.S. General Services Administration


                                  REPORT ABSTRACT
                           Follow-up Audit of GSA’s Acquisition of Services for the
OBJECTIVE                  International Trade Center at the Ronald Reagan Building:
 Our objective was to      PBS’s Oversight of Contract Requirements
 determine if the Public   Report Number A110217/P/R/R13001
 Buildings Service (PBS)   December 17, 2012
 performed effective
 oversight of the          WHAT WE FOUND
 requirements related to
 minimum revenue           We identified the following during our audit:
 guarantees and            Finding 1 – PBS did not ensure that all deliverables were provided in
 deliverables in the       accordance with contract requirements, compromising PBS’s
 contract for              oversight.
 management and
 operation of the          Finding 2 – By not verifying monthly reported revenue, PBS could be
 International Trade       losing revenues and paying inflated award fees.
 Center at the Ronald      Finding 3 – PBS is not collecting sufficient data to determine fair and
 Reagan Building,          reasonable pricing for future contracting actions.
 Contract Number
                           Finding 4 – The contractor may owe PBS $2.8 million for failure to
 GS-11P-09-ZGD-0064.
                           meet original minimum revenue guarantees.
                           WHAT WE RECOMMEND
                           Based on our audit findings, we recommend that the Acting Regional
                           Commissioner, Public Buildings Service, National Capital Region:
                              1. Improve the processes for reviewing deliverables.
                              2. Develop revenue verification processes to ensure that revenue
                                 amounts remitted by the contractor are complete, accurate, and
                                 attributed to the correct minimum revenue guarantee category.
                              3. Act in accordance with PBS’s plan to address preaward
                                 competition concerns.
Real Property Audit           4. Modify the contract to integrate a decision and/or settlement
Office (JA-R)                    agreement of the issue before the Civilian Board of Contract
1800 F Street, NW                Appeals.
Room 5014                  MANAGEMENT COMMENTS
Washington, DC 20405
(202) 219-0088             In its comments, management agreed with the audit findings and
                           concurred with the recommendations (See Appendix C).




        A110217/P/R/R13001                      i
                   Office of Audits
                   Office of Inspector General
                   U.S. General Services Administration

 DATE:             December 17, 2012
 TO:               William G. Dowd
                   Acting Regional Commissioner
                   Public Buildings Service
                   National Capital Region (WP)


 FROM:             Marisa A. Roinestad
                   Audit Manager, Real Property Audit Office (JA-R)
 SUBJECT:          Follow-up Audit of GSA’s Acquisition of Services for the International
                   Trade Center at the Ronald Reagan Building:
                   PBS’s Oversight of Contract Requirements
                   Report Number A110217/P/R/13001

This report presents the results of our audit of PBS’s oversight of the requirements
related to minimum revenue guarantees and deliverables in the contract for
management and operation of the International Trade Center at the Ronald Reagan
Building. Our findings and recommendations are summarized in the Report Abstract.
Instructions regarding the audit resolution process can be found in the email that
transmitted this report.

Your written comments to the draft report are included in Appendix C of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

Marisa Roinestad    Audit Manager        Marisa.roinestad@gsaig.gov      (202) 273-7241
Timothy Keeler      Auditor-In-Charge    Timothy.keeler@gsaig.gov        (202) 219-0088

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A110217/P/R/R13001                       ii
Table of Contents
Introduction .............................................................................................................. 1

Results
Finding 1 – PBS did not ensure that all deliverables were provided in accordance
            with contract requirements, compromising PBS’s oversight................... 3
                  Recommendation 1 ................................................................................ 4
                  Management Comments ........................................................................ 4
Finding 2 – By not verifying monthly reported revenue, PBS could be losing
            revenues and paying inflated award fees. .............................................. 4
                  Recommendation 2 ................................................................................ 6
                  Management Comments ........................................................................ 7
Finding 3 – PBS is not collecting sufficient data to determine fair and reasonable
            pricing for future contracting actions. ..................................................... 7
                  Recommendation 3 ................................................................................ 7
                  Management Comments ........................................................................ 7
Finding 4 – The contractor may owe PBS $2.8 million for failure to meet original
            minimum revenue guarantees. ............................................................... 8
                  Recommendation 4 ................................................................................ 8
                  Management Comments ........................................................................ 9


Conclusion.............................................................................................................. 10

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – Sampled Deliverables Not Meeting Requirements .................... B-1
Appendix C – Management Comments .............................................................. C-1
Appendix D – Report Distribution ....................................................................... D-1




A110217/P/R/R13001                                        iii
Introduction
In December 2008, the Public Buildings Service (PBS) awarded Contract Number GS-
11P-09-ZGD-0064 to Trade Center Management Associates, LLC (TCMA) for the
management and operation of the International Trade Center (ITC) at the Ronald
Reagan Building. The contract, valued at over $220 million, covered one base year,
nine option years, and transition and close out periods. 1

The contract requires that services be provided in 14 key program areas:
Figure 1 – Key program areas under the trade center management contract

                                        Key Program Areas
    General                                 Marketing Program
    International Trade Program             Security Related Services
    ITC Conference Center                   Information Technology and Electronic Systems
    Parking Garage Operation                Construction Management Operation
    Budget and Finance                      Complete Facilities Maintenance Type Services
    Licensing Activity                      Miscellaneous Performance Items
    License Administration 2                Activation Performance Items

The contract also says that TCMA must meet minimum revenue guarantees in six
business areas and remit a specified percentage of that revenue to GSA’s treasury
account (see Figure 2 below). If TCMA fails to meet the minimum revenue guarantees,
it must make up any shortfall on a dollar for dollar basis. TCMA can earn award fees
based on its performance. A portion of the award fees (35 percent) is contingent on
exceeding the minimum revenue guarantees.
Figure 2 – Business areas producing revenue streams and the percentage remitted

    Business Area                                   Percentage of Revenue Remitted to GSA3
    Parking Garage Operations                                             100%
    Conference Room Rental                                                100%
    License for Tenant Office Space                                       100%
    License for Retail/Food Tenant Space                                  100%
    Food and Beverage Service                                               7%
    Ancillary Services                                                     50%


1
  Transition and close out periods occur when a subsequent contract is awarded. If the award is to a
different contractor, TCMA would facilitate setting up the new trade center manager’s operations and
report to PBS on activities related to closing its operations during the transition and close out periods.
2
  In the base period, there was only one key program area for licensing called Licensing of ITC Space.
3
   All revenue percentages are gross revenue except parking garage operations and ancillary services,
which are net revenue.

A110217/P/R/R13001                              1
Our objective was to determine if PBS performed effective oversight of the requirements
related to minimum revenue guarantees and deliverables in the contract for
management and operation of the International Trade Center at the Ronald Reagan
Building, Contract Number GS-11P-09-ZGD-0064. Our audit efforts are ongoing and we
may produce additional audit work products.

See Appendix A – Purpose, Scope, and Methodology for additional details.




A110217/P/R/R13001                     2
Results
Finding 1 – PBS did not ensure that all deliverables were provided in accordance
with contract requirements, compromising PBS’s oversight.

PBS did not ensure that deliverables paid for under the contract were provided in
accordance with contract requirements. This occurred because PBS did not fully
understand the requirements, had weak control processes, and experienced a high
turnover in personnel.
TCMA is expected to produce specific deliverables during the base and option periods
to report on its management and operation of key program areas. Part of PBS’s
oversight responsibility is to review and accept the deliverables. If the deliverables are
not submitted, are submitted late, or are incomplete, PBS’s oversight activities are
compromised.
We reviewed 20 deliverables (3 from the base period and 17 from the option periods
representing 23 percent 4 of all deliverables) covering each of the key program areas.
We found that 10 deliverables did not meet contract requirements in 9 of the 14 key
program areas (see Appendix B for further details).
Two of these deliverables were not submitted as called for by the contract. The
Quarterly Contract Management Reviews Meeting Notes, a General contract
deliverable, was not submitted in the option period because PBS did not understand
that General contract deliverables were required in both the base period and option
years 1 through 9. 5 The annual Activation Plan was not submitted for option year 2
because, according to PBS, activation activities remain stable each year and therefore
the plan was not needed. However, the contract does not waive this annual deliverable
even if activation activities are static.
The remaining eight deliverables lacked essential information or were not completed at
the required intervals. For example, the Quality Control Plan did not address hood
ventilation and the Human Resource Performance deliverable did not include position
descriptions. Another example is the Inventory Tracking deliverable, which was
completed annually, but not quarterly as required.       Also, two Licensing Activity
deliverables, Leasing Summary and License Records, for both a recent lease and an
older lease could not be located. In addition, PBS did not retain copies of all
deliverables. PBS had to ask TCMA to provide some of the deliverables we requested.

Largely, these problems occurred because PBS did not have written procedures
explaining how to ensure the deliverables are properly received, reviewed, approved,
4
  Although the Invoice deliverable for Construction Management Operations was not included in contract
section F (where most deliverables are listed), it was listed in contract section C.4.5.3. Therefore, we
included this in our count of deliverables and believe it is a contract requirement.
5
  Contract section C.4.1 notes that deliverables 1 through 3 from the base period will also apply to option
periods 1 through 9. These General deliverables are: Weekly Meeting Notes, Monthly Progress Reports,
and Quarterly Contract Management Reviews Meeting Notes.

A110217/P/R/R13001                              3
and used. Documenting these processes would provide a degree of consistency
despite the personnel turnover in PBS staff managing the contract. During the course
of our audit, the building director, the contracting officer, and the contract specialist were
all replaced.

Also, there is little evidence that PBS reviewed these deliverables. The contract calls
for the contracting officer to send TCMA a Contract Discrepancy Report when
differences between actual and expected performance are noted. Although many
deliverables did not meet requirements, current PBS staff did not know of any
discrepancy reports that were issued to TCMA.

Finally, it is unclear that PBS used information from the deliverables in its oversight
efforts. For example, although the retail audit deliverable met contract requirements,
PBS did not systematically monitor TCMA’s corrective actions for the retailers that failed
the audit.

Recommendation 1

We recommend that the Acting Regional Commissioner, Public Buildings Service,
National Capital Region, improve the processes for reviewing deliverables, to include:
   a. Reviewing the contract to ensure an understanding of the deliverable
      requirements and referring questions to legal counsel if appropriate.
   b. Documenting deliverables processes.
   c. Reviewing all deliverables to ensure that contractual requirements are met.
   d. Modifying the contract with any changes to the deliverables and deletions of
      deliverables that are no longer needed.
   e. Using the Contract Discrepancy Report to communicate performance problems
      to TCMA and following through to ensure performance gaps are closed.
   f. Retaining copies of deliverables, both to show that contract terms were met and
      for PBS to use for their intended purpose.

Management Comments

In its comments, management agreed with the audit finding and concurred with the
recommendations (See Appendix C).

Finding 2 – By not verifying monthly reported revenue, PBS could be losing
revenues and paying inflated award fees.

PBS cannot be assured it has received all the revenues it is due and may pay TCMA an
award fee in error because it does not verify the monthly revenue reported by TCMA.
Instead, PBS merely credits any revenue received to the six minimum revenue
guarantees and ensures that the revenue reported by TCMA is remitted to GSA’s
treasury account.




A110217/P/R/R13001                        4
Each month TCMA submits a minimum revenue guarantee spreadsheet summarizing
remitted revenues to PBS. PBS ensures that it has received the revenue by comparing
the dollar amounts reported by TCMA to the amounts in the automated clearing house6
and GSA’s Financial Management Information System. If discrepancies are found, PBS
works with TCMA to correct them. However, PBS does not verify how much revenue
was actually earned or if it is properly classified. Except for intermittent verifications of
ancillary and license revenue, PBS does not trace the reported revenue back to
supporting documentation such as receipts, checks, invoices, and accounting entries.

These issues are especially notable in the parking operations and ancillary services
business areas.
Parking Vouchers

The Aria restaurant 7 license 8, executed on June 3, 2004, allows the restaurant to issue
vouchers for an hour of free parking to patrons who make a minimum $15 purchase.
Contract modification PS12, dated July 23, 2009, let TCMA credit these vouchers
against the parking garage minimum revenue guarantee 9. PBS stated that “this
modification is to allow TCMA to incentivize customers to patronize the Aria restaurant.”
However, since the voucher program was already in place, the modification did not help
generate additional revenue for the restaurant. All the modification accomplished was
to effectively lower the minimum revenue guarantee with no additional benefit to the
Government.

Interagency Parking

The monthly parking revenue includes an estimate of the subsidies paid by other federal
agencies whose employees park at the ITC. While these agencies pay the subsidies
directly to PBS, TCMA is allowed to count them towards its minimum revenue
guarantee for parking.

However, TCMA claims more for this interagency parking than PBS actually receives.
Although TCMA does not handle the subsidy payment, TCMA currently estimates the
amount of subsidy funds that PBS receives. TCMA’s estimate is consistently higher

6
  The automated clearing house system, commonly referred to as ACH, is the electronic funds transfer
system used by agencies to collect funds.
7
  Aria Management, LLC, which is owned and operated by the same individuals that own TCMA, operates
the Aria restaurant in the Ronald Reagan Building.
8
  The license between TCMA and Aria Management, LLC for use of space in the Ronald Reagan Building
was executed before the current TCMA contract, the subject of this audit. The Aria license term extends
to June 2014. If there is a change in the trade center management contractor, TCMA will facilitate the
transfer of all licenses to the subsequent contractor. If the licenses are not transferred to the subsequent
contractor, GSA will become the licensor. The Aria license will be analyzed in detail in future audit
products.
9
  TCMA is required to submit proof that the vouchers were used; however, PBS does not enforce this
requirement. PBS simply receives a listing summarizing the dollar value of the parking vouchers and
accepts it without reviewing any supporting documentation. Accordingly, PBS does not know if the total
credits are accurate.

A110217/P/R/R13001                               5
than the actual subsidy amount that PBS receives. For example, in the March 2012
minimum revenue guarantee spreadsheet, TCMA estimated interagency parking to be
$217,385, but PBS received only $205,942 in subsidies.

From October 2009 to April 2012, PBS credited TCMA for subsidies that were
$357,182, or 5.67 percent, greater than PBS actually received from other agencies.
Projected over the life of the contract, this could result in over-reporting revenues by
approximately $1.26 million, which in turn could result in an excessive award fee for
TCMA.

Ancillary Services

PBS does not know if the net revenues reported for ancillary services are accurate
because it accepts TCMA’s estimates of ancillary expenses without review.

Ancillary services are all conference center services other than food/beverage and room
rental services. They include, but are not limited to, audiovisual services, ushers,
cashiers, flower arrangements, electrical services, and signage. Expenses related to
ancillary services are offset against the ancillary revenue reported by TCMA (PBS
receives 50 percent of net ancillary revenue).

Ancillary expenses are established as preset ratios or amounts for the specific ancillary
services provided. For example, audiovisual services have a corresponding expense of
57 percent of income. These preset ratios were previously agreed to by TCMA and
PBS, but have not been reviewed by PBS since the original agreement. TCMA
evaluates the expense amounts annually. 10 However, it does not discuss these
evaluations with PBS, and PBS is not independently reviewing ancillary expenses. In
the month we tested, ancillary expenses totaled $182,682 and they could reach $19.7
million over the life of the contract. 11

Recommendation 2

We recommend that the Acting Regional Commissioner, Public Buildings Service,
National Capital Region, develop revenue verification processes to ensure that revenue
amounts remitted by TCMA are complete, accurate, and attributed to the correct
minimum revenue guarantee category. These processes should include:
   a. Applying the actual amount received in parking subsidies from other agencies
      towards the parking minimum revenue guarantee.
   b. Eliminating the parking vouchers credit towards minimum revenue guarantees.
   c. Reviewing TCMA’s ancillary expenses ratios annually to determine if they are
      reasonable.



10
     The scope of our audit did not include a review of TCMA’s evaluations of ancillary expenses.
11
     Assuming the sample month is representative of normal contract activity.


A110217/P/R/R13001                                6
Management Comments

In its comments, management agreed with the audit finding and concurred with the
recommendations (See Appendix C).

Finding 3 – PBS is not collecting data to determine fair and reasonable pricing for future
contracting actions.

PBS’s failure to collect historical program information and to perform market analyses
may hinder its ability to adequately evaluate contract options and future procurements.
As the incumbent, TCMA was the sole bidder for the current contract, and PBS has
made no efforts to increase competition by gathering information related to contract
operations and the market, due in part to PBS’s resource constraints.
During the solicitation phase of the current contract, a potential offeror requested
historical data related to prior trade center management activity. The potential offeror
said it needed the data in order to determine if it would be able to meet the minimum
revenue guarantees. Potential offerors, other than TCMA, would have needed such
information to make informed decisions regarding risk. This may, in part, explain why
only TCMA, the incumbent, bid on the current contract.
Prior to contract award, the then Acting Regional Administrator of the National Capital
Region informed the agency’s Senior Procurement Advisor that the PBS National
Capital Region would perform a post award evaluation of the contract and contractor
performance to provide assurance that the pricing was fair and reasonable. 12 PBS was
to use the results of this evaluation in future contract options. However other than
performance evaluations used to determine award fees, PBS is not collecting or
examining data for this purpose.
Recommendation 3

We recommend that the Acting Regional Commissioner, Public Buildings Service,
National Capital Region, act in accordance with PBS’s plan to address preaward
competition concerns by:
   a. Reviewing the requirements for this contract.
   b. Evaluating the business model used to develop the request for proposal.
   c. Conducting market research and assessing market conditions.
   d. Generally evaluating the best course for the long run.

Management Comments

In its comments, management agreed with the audit finding and concurred with the
recommendations (See Appendix C).

12
  In a November 25, 2008, memorandum to the Senior Procurement Advisor, the then Acting Regional
Administrator outlined a plan of actions that the PBS National Capital Region would take after contract
award.


A110217/P/R/R13001                              7
Finding 4 – The contractor may owe PBS $2.8 million for failure to meet original
minimum revenue guarantees.

TCMA may owe PBS $2,780,956 for not meeting the original minimum revenue
guarantees in option periods 1 and 2.
The minimum revenue guarantees were improperly lowered by a PBS contracting
officer as follows:

     •   On February 20, 2009, via contract modification PS05, minimum revenue
         guarantees for option period 1 were reduced for parking garage operations,
         tenant office space licensing, and retail/food tenant space licensing; and
     •   On March 2, 2010, via contract modification PS28, minimum revenue guarantees
         for option period 2 were reduced for parking garage operations, tenant office
         space licensing, and retail/food tenant space licensing.

On December 30, 2010, another PBS contracting officer determined that the contract
should be modified to restore the minimum revenue guarantees to their original levels.
The contracting officer’s final decision found TCMA liable for refunding award fees and
paying the dollar for dollar shortfall for failing to reach the original minimum revenue
guarantees. The contracting officer calculated that TCMA owed PBS $799,318 for the
minimum revenue guarantee disincentive for three categories. It was also determined
that TCMA should repay the award fee for option year 1.

The final decision discusses the modification of minimum revenue guarantees for option
period 2, but does not calculate an amount owed. This omission may be due to the
decision being rendered in the midst of option period 2 and prior to TCMA receiving
award fees for that period. We calculate that in option period 2, TCMA fell short of the
original minimum revenue guarantees by $1,981,638. 13 TCMA may also be required to
repay this shortfall from option period 2.

TCMA disagreed with the final decision and took the matter to the Civilian Board of
Contract Appeals. As of December 10, 2012, no final decision has been made.

Recommendation 4

We recommend that the Acting Regional Commissioner, Public Buildings Service,
National Capital Region, modify the contract in accordance with the Civilian Board of
Contract Appeals decision and/or a settlement agreement.




13
  In keeping with the contracting officer’s methodology in the final decision, we would have included any
award fee awarded for revenue generation in option period 2. However, there was no award fee for
revenue generation for option year 2.

A110217/P/R/R13001                             8
Management Comments

In its comments, management agreed with the audit finding and concurred with the
recommendations (See Appendix C).




A110217/P/R/R13001                  9
Conclusion
PBS’s oversight of the contract deliverables, revenue collection, and data collection
needs to be improved. In strengthening deliverables processes, PBS can ensure that
deliverables are provided in accordance with contract requirements. By taking
additional revenue verification steps, PBS can ensure that revenue remitted by TCMA is
accurate and complete, particularly with regard to parking operations and ancillary
services. PBS’s analysis of existing program data and acquisition of relevant market
data could improve planning for future procurements. After the issue before the Civilian
Board of Contract Appeals is settled, a contract modification should resolve the issues
related to the lowering of the minimum revenue guarantees in option periods 1 and 2.

PBS has made changes in deliverables processes during option year 4. We have not
audited these new processes; therefore, we cannot offer an opinion on their adequacy.
PBS also noted plans to address interagency parking, parking vouchers, ancillary
expenses, and collection of historical data.




A110217/P/R/R13001                     10
Appendix A – Purpose, Scope, and Methodology
Purpose

This audit was included in the Office of Inspector General’s Audit Plan for fiscal year
2012. It is a follow-up audit to our Audit of GSA’s Acquisition of Services for the
International Trade Center at the Ronald Reagan Building (Report Number
A080106/P/W/R10004, dated May 3, 2010). Our audit efforts are ongoing and we may
produce additional audit work products.

Scope

This audit covered PBS’s oversight of contract requirements for trade center
management services under Contract Number GS-11P-09-ZGD-0064. For each of the
six minimum revenue guarantee categories, the scope included revenues from a month
between March 2009 and November 2011. The scope of the deliverables reviewed was
the base period through option year 3, covering each of the 14 key program areas.

Methodology

To accomplish our objectives, we:

   •   Researched the history of the current procurement;
   •   Met with PBS contract and program personnel;
   •   Met with TCMA’s finance office personnel and coordinated requests through the
       TCMA GSA Liaison;
   •   Reviewed the contract to understand the minimum review guarantees and
       deliverable requirements;
   •   Analyzed a judgmental sample of 20 deliverables from the base period and
       option years 1 through 3;
   •   Verified a judgmental sample of monthly revenue for the six revenue streams to
       checks, receipts, journal entries, invoices, and other supporting documentation;
   •   Reviewed controls in place for parking vouchers for the Aria restaurant; and
   •   Discussed the pending Civilian Board of Contract Appeals issue with contract
       and legal personnel.

We conducted the audit between December 2011 and July 2012 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.




A110217/P/R/R13001                      A-1
Appendix A – Purpose, Scope, and Methodology (cont.)
Internal Controls

We reviewed the internal controls of TCMA’s accounting system. We also reviewed
PBS’s internal controls for deliverables and minimum revenue guarantees.




A110217/P/R/R13001                  A-2
      Appendix B – Sampled Deliverables Not Meeting Requirements
Key Program     Deliverable          Sample   Requirement                                                             Exception          Exception
Area                                 Period                                                                           Category

General         Quarterly Contract   Option   Meeting notes of high-level summary briefing of monthly reports.        Not submitted to   Meeting was not
                Management           Year 2                                                                           IG upon request    held by PBS.
                Review                        Due date: 10 days after quarter is completed.

International   Trade Events         Option   Summary list of all trade events for prior year, a brief description Insufficient          Did not describe the
Trade                                Year 3   of the contractor's direct involvement (not exclusively including                          involvement of the
Program                                       event services provided), with a minimum of 150 events (involving                          contractor.
                                              international policy, global business development, and foreign
                                              affairs).

                                              Due date: Submit monthly updates by the 5th business day of
                                              the following month.

ITC             Inventory Tracking   Option   Detailed inventory including: (1) List of items in the inventory, (2)   Insufficient       Does not indicate
Conference                           Year 1   Item type, (3) Item description, (4) Item quantity, (5) Indicate if                        whether items are
Center                                        item was a replacement purchase by the contractor, (6) Indicate                            bought by the
                                              items purchased by the contractor for the ITC (that are charged                            contractor. Not
                                              and belong to GSA).                                                                        completed quarterly.

                                              Due date: Submit quarterly in June, September, December, and
                                              March.

ITC             Revenue              Option   Submit a monthly revenue report that details ancillary revenue,         Insufficient       Not tied to a specific
Conference      Collected: Monthly   Year 3   expense, and income and identify associated banquet event                                  banquet event
Center          Report                        orders. Submit an annual report to identify the percentage of                              order. Does not
                                              federal to non-federal event revenue.                                                      include the ratio of
                                                                                                                                         federal to non-
                                              Due date: By the 14th day of each month (or next business day                              federal events.
                                              thereafter).




      A110217/P/R/R13001                                                    B-1
     Appendix B – Sampled Deliverables Not Meeting Requirements (cont.)
Key            Deliverable       Sample   Requirement                                                               Exception      Exception
Program                          Period                                                                             Category
Area
Construction   Weekly Project    Option   The contractor shall provide GSA with a weekly project status             Insufficient   Did not include a
Management     Report            Year 1   report (listing the project, project description and timeline status as                  timeline or budget
Operation                                 well as current budget status) relating to all construction or repair                    status.
                                          projects.

                                          Due date: Weekly.

Licensing      Leasing           Option   The contractor shall ensure that GSA has continuous access to             Insufficient   There were missing
Activity       Summary           Year 2   LEO (TCMA’s lease database), and shall keep the information                              lease documents in
                                          contained in LEO current.                                                                the LEO system.
                                                                                                                                   PBS does not check
                                          Due date: Monthly, before the 14th.                                                      to see how often
                                                                                                                                   LEO is updated.
Licensing      License           Option   The contractor shall provide an original of all signed license            Insufficient   Documents for a
Activity       Records           Year 3   agreements, amendments, and/or any other agreements signed.                              recent lease were not
                                          Copies of correspondence shall also be submitted.                                        found in the system.

                                          Due date: Immediately after negotiating any tenant license or
                                          receiving and submitting correspondence relating to license activity.


Complete       Quality Control   Option   The contractor shall submit a detailed quality control plan to ensure     Insufficient   Did not address hood
Facilities     Plan              Year 1   all Complete Facilities Maintenance type activities are performed to                     ventilation.
Maintenance                               meet the requirements in this scope of work.
Type
Services                                  Due date: Submitted yearly within one week after notice to
                                          proceed.




     A110217/P/R/R13001                                                   B-2
      Appendix B – Sampled Deliverables Not Meeting Requirements (cont.)
Key Program         Deliverable        Sample      Requirement                                                              Exception             Exception
Area                                   Period                                                                               Category

Miscellaneous       Human              Option     The contractor shall submit, by program area, a list of position       Insufficient           Did not include
Performance         Resource           Year 1     descriptions and number of positions for each labor classification for                        position
Items               Performance                   all employees.                                                                                descriptions.

                                                  Due date: Within 30 days after the option modification is issued.

Activation          Activation Plan    Option     The TCM shall submit an activation plan that details the list of          Not submitted to    Per PBS, TCMA did
Performance         for year           Year 2     activities, schedules, events, and event coordination information,        IG upon request     not submit the
Items                                             set-up activities, marketing activities, participants, and event layout                       activation plan to
                                                                                                                                                PBS.
                                                  plans for the year. The plan will detail the cost of conducting the
                                                  activities, events or entertainment.

                                                  Due date: Draft - 90 days after receipt of contract notice to proceed.
                                                            Final - 3 days after GSA feedback.

Parking Garage      Cash Receipt       Option    The contractor shall conduct ticket audits on a daily basis using a         Insufficient        Parking manager
                           14
Operation           Audits             Year 2    random sample method and shall compare revenue gate activities                                  was not signing
                                                 with money collected. Audit shall be performed daily by a                                       and dating the
                                                                                                                                                 audits.
                                                 management employee other than a cashier. The audit results shall
                                                 be recorded, dated, and signed by the employee.

                                                 Due date: Subject to GSA review, no less than annually. Additional
                                                 review may be required by GSA.




      14
           This deliverable was not part of the 20 deliverables sampled, but this issue came to our attention during the course of the audit.

      A110217/P/R/R13001                                                            B-3
Appendix C – Management Comments




A110217/P/R/R13001     C-1
Appendix D – Report Distribution
Commissioner, PBS (P)

Deputy Commissioner, PBS (PD)

Acting PBS Chief of Staff (PB)

Acting Director, PBS Executive Response (PBA)

Regional Administrator, National Capital Region (WA)

Acting Regional Commissioner, PBS, National Capital Region (WP)

Regional Counsel, National Capital Region (LDW)

Director, Ronald Reagan Building (WPM1CA)

Division Director, GAO/IG Audit Response Division (H1C)

Audit Liaison, PBS (BCP)

Audit Liaison, PBS, National Capital Region (BCPA)

Assistant IG for Auditing (JA)

Deputy Assistant IG for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A110217/P/R/R13001                       D-1
